No. 20-366
IN THE

Supreme ourt of the @Initeb States
DONALD J. 'TRUMP,
PRESIDENT OF THE UNTTED STATES, ET AL.,

Appellants,
V.

NEW YORK, ET AL.,
Appellees.
On Appeal from the United States District Court
for the Southern District of New York

CERTIFICATE OF COMPLIANCE
As required by Rule 33.l(h), I, D. Hunter Smith, a member of the Bar of this
Court, hereby certify that the Brief of Andrew Reamer, Ph.D., as Amicus Curiae in
Support of Appellees contains 2,935 words, excluding the parts of the brief that are
exempted by Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.

November 16, 2020

f±e'

